1a
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of Appeals 3rd Cir.
App. I, IOP 5.1, 5.3, and 5.7.
United States Court of Appeals, Third Circuit.
Richard C. ANGINO; Alice K. Angino, Appellants
v.
TRANS UNION LLC
No. 18-3704
Submitted Under Third Circuit L.A.R. 34.1(a) July 11,
2019(Filed: August 15, 2019)
On Appeal from the United States District Court for
the Middle District of Pennsylvania (D.C. Civ. No. 1-17cv-00954), District Judge: Honorable John E. Jones, III
Attorneys and Law Firms
Richard C. Angino, Esq., Angino Law Firm,
Harrisburg, PA, for Plaintiffs-Appellants
Camille R. Nicodemus, Esq., Schuckit &
Associates, Zionsville, IN, for Defendant-Appellee
Before: SHWARTZ,
Circuit Judges.

KRAUSE,

OPINION*
FUENTES, Circuit Judge.

and

FUENTES,

2a
Richard and Alice Angino faced financial
difficulties for several years. They missed payments on
several credit accounts, which negatively affected their
credit rating. After considerable efforts, they resolved
those issues, and are now on sounder financial footing.
However, records of those past incidents still appear on
the credit reports prepared by Trans Union, a credit
reporting agency. The Anginos believe those past
incidents should not continue to affect their credit, and
have sued Trans Union, alleging violations of the Fair
Credit Reporting Act.
Trans Union moved for summary judgment,
contending that the Anginos had no evidence it had
reported inaccurate information or otherwise acted
negligently. The District Court agreed, and granted
judgment in Trans Union’s favor. The Anginos have
now appealed.
We agree with the District Court. While the
Anginos are undoubtedly frustrated that their nowresolved debts continue to burden them, they have not
alleged that Trans Union has provided incorrect
information in their credit reports. For the reasons
stated here, we will affirm the judgment in favor of
Trans Union.
I.
The Anginos suffered financial difficulties
stemming from the 2008 financial crisis. The Anginos
admit that these difficulties prevented them from
making payments on at least five credit accounts. They
assert that nevertheless they have resolved those late
payments, and that the continued presence of those late
payments on their consumer reports misrepresents the
real status of their credit.

3a
They also believe that Trans Union has made
misrepresentations about their financial status on
certain disclosures it made about them to credit
providers.1 When disclosing a credit score, Trans Union
must also disclose any “key factors” that adversely
affected the credit score’s calculation.2 The Anginos
believe that some of the key factors Trans Union
identified in some score disclosures, such as “[s]erious
delinquency” or “[a]mount owed on revolving
[a]ccounts is too high,” are misleading.3
After filing several complaints with Trans
Union, the Anginos filed this suit, alleging a number of
federal and state law claims. After discovery concluded,
Trans Union moved for summary judgment. The
District Court granted the motion, entering judgment
in favor of Trans Union on all claims. The Anginos
moved for reconsideration, which the District Court
denied.
The Anginos have now appealed to our Court.
They appeal only their claims that Trans Union violated
the Fair Credit Reporting Act, and we therefore
consider only those claims now.4
II.
“We review a district court’s grant of summary
judgment de novo, applying the same standard the
district court applied.”5 Summary judgment is
appropriate where “there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.”6 We review facts, and
draw all inferences, in the manner most favorable to the
non-movant.7
The Anginos allege that Trans Union negligently
failed to comply with the Fair Credit Reporting Act by

4a
failing to maintain reasonable procedures in violation of
15 U.S.C. § 1681e(b), and by failing to conduct a
reasonable investigation into the Anginos’ disputes to
their report, in violation of 15 U.S.C. § 1681i(a).
“Negligent noncompliance with § 1681e(b)[ ]
consists of the following four elements: ‘(1) inaccurate
information was included in a consumer’s credit report;
(2) the inaccuracy was due to defendant’s failure to
follow reasonable procedures to assure maximum
possible accuracy; (3) the consumer suffered injury; and
(4) the consumer’s injury was caused by the inclusion of
the inaccurate entry.’ ”8
Similarly, § 1681i(a)(1)(A) states that “if the
completeness or accuracy of any item of information
contained in a consumer’s file at a consumer reporting
agency is disputed by the consumer and the consumer
notifies the agency ... the agency shall, free of charge,
conduct a reasonable reinvestigation to determine
whether the disputed information is inaccurate.” “Thus,
we can assume that absent any indication that the
information is inaccurate, the statute does not
mandate” further investigation.9
To prevail under either claim, then, the Anginos
must show that their credit report contains inaccurate
information. They have failed to do this. The Fair
Credit Reporting Act allows credit agencies to report
“[a]ny ... adverse item of information ... which antedates
the report by more than seven years.”10 The Anginos
admit that they made late payments on the relevant
credit lines, and they do not allege that any adverse
information appearing on their reports is more than
seven years old. They assert only that these credit
issues have been resolved and that they should no
longer appear as adverse items on their report.
However, under the terms of the Fair Credit Reporting

5a
Act, Trans Union appropriately included the adverse
items appearing on the Anginos’ consumer reports.
The same analysis applies to the Anginos’
contention that the key factors supplied by Trans
Union were misleading. Trans Union asserts that these
disclosures are not “credit reports” under the Fair
Credit Reporting Act, and therefore cannot serve as
the basis for a negligent noncompliance claim.
However, we need not reach that question, because the
Anginos have failed to present facts suggesting that the
key factors are inaccurate. They admit that they have
made late payments on credit accounts. And, with the
benefit of discovery, they have failed to present
additional facts that suggest the key factors are based
on other mistakes, false information, or inaccuracies.11
This case presents a different situation from
others we have considered in the past, such as Cortez v.
Trans Union LLC,12 Philbin v. Trans Union Corp.,13
and Cushman v. Trans Union Corp.14 In each of those
cases, the plaintiff identified inaccurate information on
their reports, such as, respectively, an incorrect
identity,15 an erroneously included tax lien,16 or a
fraudulently opened credit line.17 The Anginos identify
no such incorrect information here.
The gravamen of the Anginos’ claim is not that
the information in their credit reports and disclosures is
inaccurate, but rather that it is irrelevant. These facts
do not support a claim for negligent noncompliance with
or for failure to conduct a reasonable investigation
under the Fair Credit Reporting Act.
III.

6a
For the foregoing reasons, we will affirm the
District Court’s grant of Trans Union’s summary
judgment.
Footnotes
*This disposition is not an opinion of the full Court and
pursuant to I.O.P. 5.7 does not constitute binding
precedent.
1We note that although the Reporting Act
distinguishes between “consumer reports,” which are
released to credit providers, see, e.g., 15 U.S.C. §§
1681b-d, 1681e(b); and “consumer disclosures,” which
are released to consumers, see, e.g., 15 U.S.C. §§ 1681gh, we use the terms “disclose” and “disclosure” in this
opinion only in the colloquial sense, not as terms of art.
2See 15 U.S.C. § 1681g(f)(1)(C) (requiring credit
agencies to disclose “all of the key factors that
adversely affect[ ]” a credit score’s calculation).
3Appellant Br. 8.
4The District Court had jurisdiction to consider the
Anginos’ Fair Credit Reporting Act claims pursuant to
15 U.S.C. § 1681p, which vests jurisdiction in federal
district courts “to enforce any liability created under”
the Act. We have appellate jurisdiction pursuant to 28
U.S.C. § 1291.
5Viera v. Life Ins. Co. of N. Am., 642 F.3d 407, 413 (3d
Cir. 2011).
6Fed. R. Civ. P. 56(a).
7Big Apple BMW, Inc. v. BMW of N. Am. Inc., 974
F.2d 1358, 1363 (3d Cir. 1992).
8Cortez v. Trans Union, LLC, 617 F.3d 688, 708 (3d Cir.
2010) (quoting Philbin v. Trans Union Corp., 101 F.3d
957, 963 (3d. Cir. 1996)).

7a
9Cushman v. Trans Union Corp., 115 F.3d 220, 225 (3d
Cir. 1997).
1015 U.S.C. § 1681c(a)(5).
11The Anginos variously argue that, in addition to
providing misleading key factors, Trans Union failed to
include relevant key factors, but they fail to identify
which key factors should have been included or which
documents are missing them.
12617 F.3d at 708.
13101 F.3d at 960.
14115 F.3d at 222.
15Cortez, 617 F.3d at 696.
16Philbin, 101 F.3d at 961.
17Cushman, 115 F.3d at 222.

8a
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
No. 18-3704
RICHARD C. ANGINO; ALICE K. ANGINO,
Appellants
v.
TRANSUNION LLC
On Appeal from the United States District Court for
the Middle District of Pennsylvania (D.C. Civ. No. 1-17cv-00954) District Judge: Honorable John E. Jones, III
Submitted Under Third Circuit L.A.R. 34.1(a) July 11,
2019
Before: SHWARTZ, KRAUSE, and FUENTES,
Circuit Judges.
JUDGMENT
This cause came to be considered on the record
from the United States District Court for the Middle
District of Pennsylvania and was submitted pursuant to
Third Circuit L.A.R. 34.1(a) on July 11, 2019.
On consideration whereof, it is now hereby
ORDERED and ADJUDGED that the judgment of the
District Court entered November 19, 2018 is
AFFIRMED. Costs taxed against Appellants. All of
the above in accordance with the Opinion of this Court.
ATTEST: s/Patricia S. Dodszuweit
Clerk Dated: August 15, 2019

9a
United States District Court, M.D. Pennsylvania.
Richard C. ANGINO, et al., Plaintiffs,
v.
TRANSUNION, LLC, Defendants.
1:17-cv-954
Filed 11/19/2018
Attorneys and Law Firms
Richard C. Angino, Angino & Lutz, P.C.,
Harrisburg, PA, for Plaintiffs.
Camille R. Nicodemus, Pro Hac Vice, Schuckit &
Associates, P.C., Zionsville, IN, for Defendants.
MEMORANDUM
Hon. John E. Jones III, District Judge
Before the Court is Defendant Transunion,
LLC’s (hereinafter “Transunion”) Motion for Summary
Judgment (“the Motion”). (Doc. 47). Plaintiffs Richard
C. Angino and Alice K. Angino (hereinafter collectively
referred to as “Plaintiffs”) filed a brief in opposition on
September 20, 2018. (Doc. 52). Transunion filed a reply
on October 4, 2018. (Doc. 54). The Motion is therefore
ripe for our review. For the reasons that follow, the
Motion shall be granted and judgment shall be entered
in favor of Transunion.

10a
I. BACKGROUND
The undisputed facts taken from the record are
as follows. Over the last several decades, Plaintiffs have
made a series of successful financial investments and
engaged in numerous successful business ventures,
particularly in real estate. (Doc. 1 at ¶¶ 5-6). Beginning
in 2008, however, Plaintiffs experienced a number of
financial difficulties resulting from the recession and
collapse of the real estate market. (Doc. 48 at ¶ 10). In
2008, Plaintiffs lost $2.8 million in stock value when the
stock market crashed. (Doc. 48 at ¶ 11). Plaintiffs'
financial troubles worsened in May 2010 when
Santander Bank “called” Plaintiffs' loans totaling $6.3
million. (Doc. 50 at ¶ 13). A judgment amounting to
more than $6.3 million in favor of Santander Bank was
entered against Plaintiffs on July 23, 2014. (Doc. 49-1 at
11, 70:19-24).
Since 2014, various creditors have denied
Plaintiffs' applications for credit. (Doc. 53 at ¶ 7; Doc.
49-1 at 142-70; Doc. 53 at ¶ 28). These credit decisions
were based on adverse information contained in
Plaintiffs' credit file. (Doc. 49-1 at 142-70).
Starting in 2016, Plaintiffs filed numerous
dispute letters with Transunion about their credit file.
(Doc. 1 at ¶ 30). In the dispute letters, Plaintiffs
challenged the accuracy of Transunion’s categorization
as “Adverse Accounts” several accounts on which
Plaintiffs had made late payments. (Doc. 1-1 at 105-06).
These accounts include a Santander Bank mortgage on
which Plaintiffs made late payments starting in
February 2012, (Doc. 1-1 at 105-06; Doc. 49-1 at 55; Doc.
49-1 at 45, 102:18-19), a Wells Fargo Home Mortgage
account on which Plaintiffs made late payments
starting in August 2012, (Doc. 1-1 at 105-06; Doc. 49-1 at

11a
55-56), a Santander Bank second mortgage on which
Plaintiffs made late payments starting in March 2013,
(Doc. 1-1 at 105-06; Doc. 49-1 at 55; Doc. 49-1 at 45,
102:18-19), a Santander Bank line-of-credit on which
Plaintiffs made late payments starting in October 2013,
(Doc. 1-1 at 105-06; Doc. 49-1 at 55; Doc. 49-1 at 44, 99:521), and an American Honda Finance account on which
Plaintiffs made a late payment in August 2015. (Doc. 1-1
at 105-06; Doc. 49-1 at 22, 162:18-163:2; Doc. 50 at ¶ 7).
Plaintiffs concede that they made late payments
on each of these accounts, (Doc. 1-1 at 105-06; Doc. 49-1
at 22, 162:18-163:2; Doc. 49-1 at 55-56; Doc. 49-1 at 44,
99:5-21; Doc. 49-1 at 45, 102:18-19; Doc. 50 at ¶ 7), but
assert that the late payments should no longer affect
their credit score since their financial circumstances
have improved. (Doc. 1 at ¶¶ 14-18; Doc. 49-1 at 32,
203:5-22; Doc. 49-1 at 32-33, 205:20-206:4; Doc. 49-1 at
22, 163:4-16; Doc. 49-1 at 85-104; Doc. 50-1 at 16-56).
II. STANDARD OF REVIEW
Summary judgment is appropriate if the moving
party establishes “that there is no genuine dispute as to
any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a). A
dispute is “genuine” only if there is a sufficient
evidentiary basis for a reasonable jury to find for the
non-moving party, and a fact is “material” only if it
might affect the outcome of the action under the
governing law. See Sovereign Bank v. BJ’s Wholesale
Club, Inc., 533 F.3d 162, 172 (3d Cir. 2008) (citing
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248, 106
S.Ct. 2505, 91 L.Ed.2d 202 (1986) ). A court should view
the facts in the light most favorable to the non-moving
party, drawing all reasonable inferences therefrom, and

12a
should not evaluate credibility or weigh the evidence.
See Guidotti v. Legal Helpers Debt Resolution, L.L.C.,
716 F.3d 764, 772 (3d Cir. 2013) (citing Reeves v.
Sanderson Plumbing Prods., Inc., 530 U.S. 133, 150,
120 S.Ct. 2097, 147 L.Ed.2d 105 (2000) ).
Initially, the moving party bears the burden of
demonstrating the absence of a genuine dispute of
material fact, and upon satisfaction of that burden, the
non-movant must go beyond the pleadings, pointing to
particular facts that evidence a genuine dispute for
trial. See id. at 773 (citing Celotex Corp. v. Catrett, 477
U.S. 317, 324, 106 S.Ct. 2548, 91 L.Ed.2d 265 (1986) ). In
advancing their positions, the parties must support
their factual assertions by citing to specific parts of the
record or by “showing that the materials cited do not
establish the absence or presence of a genuine dispute,
or that an adverse party cannot produce admissible
evidence to support the fact.” Fed. R. Civ. P. 56(c)(1).
A court should not grant summary judgment
when there is a disagreement about the facts or the
proper inferences that a factfinder could draw from
them. See Reedy v. Evanson, 615 F.3d 197, 210 (3d Cir.
2010) (citing Peterson v. Lehigh Valley Dist. Council,
676 F.2d 81, 84 (3d Cir. 1982) ). Still, “the mere
existence of some alleged factual dispute between the
parties will not defeat an otherwise properly supported
motion for summary judgment.” Layshock ex rel.
Layshock v. Hermitage Sch. Dist., 650 F.3d 205, 211 (3d
Cir. 2011) (quoting Anderson, 477 U.S. at 247-48, 106
S.Ct. 2505) (quotation marks omitted).
III. DISCUSSION
Plaintiffs assert both federal statutory claims
under the Fair Credit Reporting Act, (FCRA), 15

13a
U.S.C. § 1681 et seq., and state common law claims. We
will address these claims in turn.
A. Negligent Noncompliance with FCRA
Plaintiffs' Complaint sets forth one count of
negligent noncompliance with the FCRA. Plaintiffs'
claims under this statutory scheme are essentially
twofold: (1) that Transunion did not maintain
reasonable procedures to ensure maximum possible
accuracy, in violation of 15 U.S.C. § 1681e(b); and (2)
that Transunion did not conduct reasonable
investigations of Plaintiffs' disputes to their credit
report, in violation of 15 U.S.C. § 1681i(a).
1. Failure to Maintain Reasonable Procedures
The FCRA requires a credit reporting agency
(“CRA”) to follow reasonable procedures to assure the
maximum possible accuracy of its reporting. See 15
U.S.C. § 1681e(b). A case of negligent noncompliance
with § 1681e(b) consists of four elements: “(1)
inaccurate information was included in a consumer’s
credit report; (2) the inaccuracy was due to defendant’s
failure to follow reasonable procedures to assure
maximum possible accuracy; (3) the consumer suffered
injury; and (4) the consumer’s injury was caused by the
inclusion of the inaccurate entry.” Schweitzer v.
Equifax Info. Sols. LLC, 441 F. App'x 896, 902 (3d Cir.
2011) (quoting Philbin v. Trans Union Corp., 101 F.3d
957, 963 (3d Cir. 1996) ). “A report is inaccurate when it
is ‘patently incorrect’ or when it is ‘misleading in such a
way and to such an extent that it can be expected to
[have an] adverse[ ]’ effect.” Id. (quoting Dalton v.

14a
Capital Associated Indus., Inc., 257 F.3d 409, 415
(4thCir. 2001) ) (brackets in original).
Plaintiffs here do not dispute the accuracy of the
data reported by Transunion. In fact, Plaintiffs have
expressly admitted that they made late payments on
each of the disputed accounts. Instead, Plaintiffs argue
that Transunion improperly listed the accounts under
the “Adverse Accounts” heading on Plaintiff’s credit
report when, for example, “there was only one late
payment reported as thirty (30) days past due,” (Doc.
52 at 8), or when Plaintiffs paid an account “regularly
except for one month” and then paid the account in full.
(Id. at 9). The FCRA expressly allows CRAs to report
“adverse item[s] of information” up to seven years after
the adverse event. 15 U.S.C. § 1681c(a)(5) (emphasis
added); see also Seamans v. Temple Univ., 744 F.3d
853, 860 (3d Cir. 2014) (“ ‘[A]dverse items of
information’ ... may be reported only for seven years
after the adverse event.’ ” (brackets omitted) ). The
“Adverse Accounts” notation is nothing more than a
heading on Plaintiffs' credit report indicating the
accounts that contain adverse items of information.
Plaintiffs have not produced any evidence showing
either an inaccuracy in the reporting of the late
payments or that the late payments occurred more than
seven years before the dates of the reports.1
Plaintiffs also question terms such as “serious
delinquency” and “amount owed on revolving accounts
is too high,” which appear on credit decision letters
Plaintiffs received from creditors. These notations,
however, are not part of the “information” contained in
Plaintiffs' consumer reports, see 15 U.S.C. § 1681e(b),
but instead reflect the “key factors” that adversely
affected Plaintiffs' credit scores as required by the
FCRA’s consumer disclosure provisions. See id. §

15a
1681g(f)(1)(C) (requiring credit reporting agencies to
disclose “key factors” that adversely affected a
consumer’s credit score). The FCRA distinguishes
between consumer reports and consumer disclosures.
“Once CRAs receive credit information from
furnishers, they compile and distribute the information
to subscribers through credit reports, and to consumers
through consumer disclosures.” Shaw v. Experian Info.
Sols. Inc., 891 F.3d 749, 752 (9th Cir. 2018). FCRA’s
accuracy requirement pertains to the preparation of
“consumer reports,” not to consumer disclosures. See
id. § 1681e(b); see also Holmes v. TeleCheck Int'l, Inc.,
556 F.Supp.2d 819, 839 (M.D. Tenn. 2008). “In other
words, a claim for inaccuracies in a file disclosure is not
cognizable under the FCRA.” Holmes, 556 F.Supp.2d at
839. None of the disclosures Plaintiffs obtained fall
within the FCRA’s definition of “consumer reports.”
See 15 U.S.C. § 1681a(d)(2)(A)(i) (“[T]he term ‘consumer
report’ does not include ... any report containing
information solely as to transactions or experiences
between the consumer and the person making the
report.”).
Plaintiffs, by their own admissions, cannot
satisfy the threshold element of inaccuracy of a §
1681e(b) claim. Thus, inasmuch as there is no genuine
issue of material fact concerning the accuracy of the
information included in their consumer credit reports,
we will grant summary judgment in favor of
Transunion on this claim.
2. Failure
Failure to Conduct Reasonable Investigations
Plaintiffs next claim that Transunion failed to
conduct reasonable investigations as required by 15
U.S.C. § 1681i(a). The Third Circuit has enumerated the

16a
elements of a § 1681i(a) claim as follows: (1) that the
consumer disputed the accuracy of an item in his or her
credit file and (2) that a reasonable investigation by the
agency could have uncovered the inaccuracy. See
Cushman v. TransUnion Corp., 115 F.3d 220, 226 (3d
Cir. 1997). Similar to the aforestated claim, an assertion
that Transunion failed to conduct reasonable
investigations, as required by § 1681i(a), implies
inaccurate data disputed by the consumer. See
Schweitzer, 441 F. App'x at 904 n.9 (finding summary
judgment on a § 1681i claim properly granted in favor
of a CRA because no genuine issue of material fact as to
the accuracy of the consumer credit report existed).
Thus, it is evident that a consumer can only achieve
relief under § 1681i(a) if the disputed data was
inaccurate.
As we have previously noted, Plaintiffs have
admitted to the accuracy of Transunion’s records. Thus,
with no discernible inaccuracy, this claim likewise fails.
Accordingly, we will grant summary judgment on
Plaintiffs § 1681i(a) claim.
B. Willful
Willful Noncompliance with FCRA
Plaintiffs' Complaint also sets forth one count of
willful noncompliance with the FCRA. The FCRA
imposes civil liability on credit reporting agencies that
“willfully fail[ ] to comply with any requirement” under
the FCRA. 15 U.S.C. § 1681n(a). Plaintiffs base their
claim on the same set of facts that formed the basis for
their negligent noncompliance claims. However, as we
have already noted, Plaintiffs presented no evidence
that Transunion even negligently failed to comply with
the FCRA and certainly no evidence that Transunion

17a
did so willfully. Accordingly, we will also grant
summary judgment on Plaintiffs § 1681n(a) claim.
C. Common Law Claims
Finally, Plaintiffs' Complaint sets forth one
count of common law defamation and one count of
common law fraud.
In Pennsylvania, “[d]efamation, of which libel,
slander, and invasion of privacy are methods, is the tort
of detracting from a person’s reputation, or injuring a
person’s character, fame, or reputation, by false and
malicious statements.” Joseph v. Scranton Times L.P.,
959 A.2d 322, 334 (Pa. Super. Ct. 2008) (emphasis
added). “In order to be actionable, the words must be
untrue, unjustifiable, and injurious to the reputation of
another.” Id.
A common law cause of action for fraud contains
the following elements: “(1) a representation; (2) which
is material to the transaction at hand; (3) made falsely,
with knowledge of its falsity or recklessness as to
whether it is true or false; (4) with the intent of
misleading another into relying on it; (5) justifiable
reliance on the misrepresentation; and (6) the resulting
injury was proximately caused by the reliance.” Gibbs
v. Ernst, 538 Pa. 193, 647 A.2d 882, 889 (Pa. 1994)
(emphasis added).
In light of Plaintiffs' failure to proffer any
evidence showing an inaccuracy in their credit reports,
we will also grant summary judgment on Plaintiffs'
defamation and fraud claims.

18a
IV. CONCLUSION
Based on the foregoing analysis, the Court shall
grant Transunion’s Motion for Summary Judgment. We
shall issue a separate order in accordance with this
ruling.
Footnotes
1Plaintiffs claim that it was improper for Santander
Bank to demand full payment of the $250,000 line-ofcredit in October 2014. (Doc. 49-1 at 31-32, 201:11-202:2;
Doc. 50 at ¶ 5). However, that is irrelevant for our
purposes because Santander Bank reported Plainitiffs'
payments as late. See Serfess v. Equifax Credit Info.
Servs., No. 13-406 (RBK/JS), 2014 WL 4272032, at *8,
2014 U.S. Dist. LEXIS 120138, at *20 (D. N.J. Aug. 28,
2014) (“[A] credit reporting agency is not required to
referee a dispute between a consumer and lender.”).
Plaintiffs proffer no evidence that Transunion
inaccurately reported information from Santander
Bank.

19a
Filed: 09/11/2019
UNITED STATES COURT OF APPEALS FOR THE
THIRD CIRCUIT
No. 18-3704
RICHARD C. ANGINO; ALICE K. ANGINO,
Appellants
v.
TRANSUNION LLC
(M.D. Pa No. 1-17-cv-00954)
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, JORDAN,
SHWARTZ, KRAUSE, RESTREPO, BIBAS,
PORTER, MATEY, PHIPPS, and FUENTES,*
Circuit Judges
The petition for rehearing filed by appellant, in the
above-entitled case having been submitted to the
judges who participated in the decision of this Court
and to all the other available circuit judges of the circuit
in regular active service, and no judge who concurred in
the decision having asked for rehearing, and a majority
of the judges of the circuit in regular service not having
voted for rehearing, the petition for rehearing by the
panel and the Court en banc, is denied.
* Pursuant to Third Circuit I.O.P. 9.5.3., Judge
Fuentes’s vote is limited to panel rehearing.

20a
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF
PENNSYLVANIA
RICHARD C. ANGINO and
ALICE K. ANGINO
Plaintiffs,

:
:
:

v.

1:17-cv-954

Hon. John E. Jones III

:

TRANSUNION, LLC,
Defendant

:

MEMORANDUM AND ORDER
September 26, 2019

Before the Court is Defendant Transunion
LLC’s Motion for Attorneys’ Fees and Sanctions
Pursuant to 15 U.S.C. §1681, 28 U.S.C. § 1927 and the
Inherent Powers of the Court (“the Motion”). (Doc. 63).
The Motion has been fully briefed and is ripe for
disposition. For the reasons that follow, the Motion
shall be granted in part and denied in part.
I.

FACTUAL
BACKGROUND
PROCEDURAL HISTORY

AND

The facts of this case are well-known to the
Court and to the parties involved. (Docs. 1, 6, 21, 47, 48,
49, 50, 52, 53, 54, 61, 63, 68, 69, 70). Because we have
detailed the facts of the matter a prior order, we need
not fully repeat ourselves here. (Doc. 58). It is sufficient
to reiterate that Richard and Alice Angino (“Plaintiffs”)

21a
were entrepreneurs engaged in several real estate
ventures in Pennsylvania in the early 2000s. (Doc. 58 at
1). The 2008 financial collapse caused financial
difficulties for Plaintiffs, resulting in late payments on
at least five credit accounts connected to those
ventures. Id. at 2.
Since that time, various creditors have denied
Plaintiffs’ applications for credit based on adverse
information contained in Plaintiffs’ credit report
generated by Transunion, LLC (“Defendant”). Id. at 2.
Based on these denials, Plaintiffs asserted both federal
statutory claims under the Fair Credit Reporting Act,
(“FCRA”), 15 U.S.C. § 1681 et. seq., and state common
law claims against Defendant, alleging that their credit
history had been unlawfully categorized as less
favorable than they believed it should be. (Doc. 1 at ¶
30; Doc. 1-1 at 105-106). Plaintiffs expressly concede
they made late payments on all relevant accounts but
argued that including those late payments in their
credit report unlawfully misrepresented their true
financial health. (Doc. 1-1 at 105-06; Doc. 49-1 at 22;
162:18-163:2; Doc 49-1 at 55-56; Doc. 49-1 at 44, 99:5-21;
Doc. 49-1 at 45, 102:18-19; Doc. 50 at ¶7).
We granted summary judgment to Defendant on
November 19, 2018 because Plaintiffs failed to allege
any inaccurate reporting by Defendant that could
support a cognizable claim under the FCRA. (Doc. 58 at
5). We denied Plaintiffs’ Motion for Reconsideration on
January 8, 2019. (Doc. 73). Defendant filed the instant
Motion seeking attorneys’ fees and sanctions on
December 3, 2018, (Doc. 62), which is now fully briefed.
(Doc. 69, Doc. 72). Plaintiffs appealed our summary
judgment
decision
on
December
14,
2019.
Consequently, we stayed our disposition of the Motion
pending the Third Circuit’s decision. The Third Circuit

22a
upheld our grant of summary judgment on September
19, 2019. The Motion is therefore now ripe for
disposition.
II.

DISCUSSION

Defendant seeks attorneys’ fees and sanctions
under both the FCRA and the Federal Vexatious
Litigation Statute, 28 U.S.C. §1927 (“FVLS”). Because
we find that the FCRA permits us to grant Defendant
its attorneys’ fees, we need not reach Defendant’s
FVLS argument Defendant also appeals to the Court’s
inherent power to issue general sanctions, which we
decline to exercise. We will take Defendant’s FCRA
and “inherent power” arguments in turn.
A.

ATTORNEYS’ FEES UNDER FCRA

The FCRA permits attorneys’ fees to be
awarded to the prevailing party “[u]pon a finding by
the court that an unsuccessful pleading, motion, or
other paper filed in connection with an action under this
section was filed in bad faith or for purposes of
harassment.” 15 U.S.C.A. § 1681n(c). “The statute
requires a showing that a document was filed in bad
faith.” Ryan v. Trans Union Corp., No. 99-216, 2001
WL 185182, at *6 (N.D. III. Feb. 26, 2001)(emphasis in
original); see also Bagumyan v. Valero Energy Corp.,
No. 07-312ABC, 2007 WL 1500849, at *2 (C.D. Cal. Apr.
25, 2007) (allegation that plaintiff engaged in bad faith
by maintaining action after being provided with
exculpatory information was insufficient to state a
claim for attorney’s fees under 15 U.S.C. § 1681n(c),
which applies only to papers “filed in bad faith or for
purposes of harassment”). It is not enough to show that

23a
the “pleading, motion, or other paper” in question “later
turned out to be baseless.” Ryan, 2001 WL 185182, at
*6. If the Court makes the requisite finding of bad faith
or a harassing purpose, it “shall award to the prevailing
party attorney’s fees reasonable in relation to the work
expended in responding to the pleading, motion or
other paper.” 15 U.S.C. § 1681n(c).
Defendant asks that we award attorneys’ fees
under the FRCA because Plaintiffs filed their
complaint in bad faith. (Doc. 63 at 8-9). Defendant
argues that Plaintiffs knew their FRCA claims were
baseless at their time of filing because Plaintiffs were
concurrently engaged in separate litigation concerning
their relevant delinquent credit accounts. Id. at 9.
Plaintiffs were actively involved in that litigation and
had expressly conceded, in both those cases and in the
instant one, that they had made late payments on the
accounts—payments which they argue in the instant
action to be inaccurately reported. Id. Therefore,
Defendant alleges that Plaintiffs knew “that the
negative information [about Plaintiffs’ credit history]
reported to Trans Union by their creditors was
accurate [and] Plaintiffs filed the Complaint falsely
stating otherwise, improperly seeking to hold Trans
Union accountable for Plaintiffs’ own actions.” (Doc. 63
at 10). Defendant also points to Plaintiff Richard
Angino’s statement to the Central Penn Business
Journal, later confirmed in his deposition, that he
brought the case against Defendant to “mend his
reputation in the court of public opinion.” (Doc. 49-1 at
10).
In response, Plaintiffs baldly argue that there is
“factual and legal bases to support the claims in the
Complaint” and that there was “no ‘bad faith’ in filing
the claims,” without citing any support therewith. (Doc.

24a
70 at 6). They contend that “the Court incorrectly
granting summary judgment does not make Plaintiffs’
claims ‘frivolous.’” Id. at 7.
Plaintiffs also state that their case was filed
against Defendant in a “good faith effort to extend the
law to meet the Legislature’s intent behind drafting the
FCRA,” Id. 14. Because extending the interpretation of
a law is a good faith reason for filing a case, Plaintiffs
argue, attorneys’ fees under the FCRA are not
appropriate here, even if there was no clear cause of
action at the time of filing. Id.
The Third Circuit has not yet addressed the
meaning of “bad faith” in the context of the FCRA.
Defendant asks us to adopt the “ordinary meaning in
the attorneys’ fee context and require a ‘showing either
that the party subjectively acted in bad faith—knowing
that he had no viable claim—or that he filed an action or
paper that was frivolous, unreasonable, or without
foundation.’” (Doc. 63 at 8, quoting Alston v. Branch
Banking & Tr. Co., No. GJH-15-3100, 2018 WL 4538538,
at *3 (D. Md. Sept. 20, 2018).
Several of our sister courts have considered the
meaning of “bad faith” in the context of § 1681n(c).
Lewis v. Trans Union LLC, No. 04-6550, 2006 WL
2861059, at *4 (N.D. III. Sept. 29, 2006) (awarding
attorney’s tees pursuant to §1681n(c) where plaintiff
“knew of the falsity and baselessness of allegations in
the complaint when it was filed” because she had
alleged mistakes in her credit report in violation of the
FCRA when she knowingly used multiple identities to
commit fraud); Mayle v. Equifax Info. Servs., Inc., No.
03-8746, 2006 WL 398076, at *2 (N.D. III. Feb. 14, 2006)
(finding that defendants were entitled to attorney’s fees
under §1681n(c) where plaintiff and her attorneys had
documentation showing that the relevant loans had

25a
been dispersed to plaintiff, should properly affect her
credit rating, thereby making plaintiff’s FCRA action
frivolous prior to the filing of the action); but see Ryan
v. Trans Union Corp., No. 99 C 216, 2001 WL 185182, at
*5 (N.D. III. Feb. 26, 2001) (holding that allegations of
falsity in the complaint were not, on their own, enough
to support awarding attorney’s fees to defendant.
Evidence that plaintiff subjectively knew about the
credit charges underlying his claim, which he claimed to
be fraudulently attributed to him, was required to
award attorney’s fees to defendant).
Upon review of the relevant case law, we are
persuaded to adopt the “ordinary meaning” of “bad
faith.” As applied here, we find that Plaintiffs acted in
bad faith by Filing their complaint because they alleged
a violation of the FRCA when they knew their credit
report to be accurate. Plaintiffs expressly admitted to
making late payments on the disputed accounts and so
cannot “satisfy the threshold element of inaccuracy of a
[FCRA] claim.” (Doc. 58 at 6-8). Indeed, Plaintiffs were
actively engaged in separate litigation concerning the
relevant credit accounts at the time of filing the instant
case. It does not seem that Plaintiffs were contesting
the timeliness of their payments in their other pending
cases, and so were well aware of their delinquency
when they alleged inaccuracy in the instant case.1
1

We note that Plaintiffs raise a novel argument in their brief that
they intended to “extend the law to meet the Legislature’s intent
behind drafting the FCRA” and so should not be subject to the
imposition of “bad faith” attorneys’ fees, despite their knowledge
of the accuracy of the report. (Doc. 70 at 14). Plaintiffs’ arguments
in support of this claim are conclusory at best. They cite no
legislative history to persuade us that the legislature intended
their claim to be actionable, nor do they provide any of their own
reasoning in support. Plaintiffs merely state that the FCRA

26a
We also consider Plaintiff Richard Angino’s
status as an experienced and knowledgeable attorney
to be highly relevant in determining whether Plaintiffs
knew of the baseless nature of their claims.2 As an
attorney, Plaintiff Richard Angino knew or should have
known that his FCRA claims were not viable and so
constituted a “bad faith” filing that would subject him
to liability for Defendant’s attorneys’ fees. Plaintiffs
were clearly unsatisfied with the representation of
their credit contained in Defendant’s credit report.
However, surely Plaintiffs should have known that such
dissatisfaction is not actionable in a court of law.
Plaintiffs nevertheless instituted the present action
with full knowledge that their underlying claims were
false and made in bad faith. Plaintiffs’ filing appears to
be an example of the maxim that the best defense is a
good offense. But this hardly justifies its filing under
the circumstances well-known to Plaintiffs.
Moreover, Plaintiff Richard Angino’s statement
that he wanted to “mend his reputation in the court of
public opinion” by filing the instant action does not give
rise to a viable FCRA claim. Plaintiffs clearly
“affects millions of consumers including anyone who wants to
purchase a house, car, or shirt on credit, or anyone that wants to
take out a home or student loan” and that “the law certainly must
be changed or extended to provide customers and creditors
protection from inaccurate reporting.” Setting aside the fact that
Plaintiffs expressly admit that there were, in fact, no inaccuracies
reported on their credit history, we find that Plaintiffs present
nothing upon which we could base a conclusion that they brought
this claim in a good faith attempt to extend the scope of the FCRA.
2
Regarding a §1681n(c) claim, “the question is whether [plaintiff]
knew that by filing suit, she knew she ‘had no viable claim’ or that
the complaint was frivolous, unreasonable, or without foundation”
Lewis v. Trans Union LLC, No. 04 C 6550, 2006 WL 2861059, at *3
(N.D. III. Sept. 29, 2006).

27a
understood that their late payments were accurately
reflected on their credit report and were includable in
such a report by law, regardless of whether such a
report reflected poorly on their standing in the
community. While Plaintiffs may not have liked the
information contained in their report, this Court was
not an appropriate avenue for addressing their
frustrations, nor for restoring their financial reputation.
Because there exists supporting depositions and
other documents, from both Plaintiffs, evidencing their
knowledge of accurate credit reporting and improper
purpose for filing, we find that Plaintiffs knew of the
falsity of their allegations of inaccuracy in their credit
report and so filed their Complaint in bad faith, thereby
meriting an award of attorneys’ fees to Defendant.
(Doc. 1-1 at 105-06; Doc, 49-1 at 22; 162:18-163:2; Doc 491 at 55-56; Doc. 49-1 at 44,99:5-21; Doc. 49-1 at 45,
102:18-19; Doc. 50 at ¶7).
B.

SANCTIONS
INHERENT
COURT

UNDER
POWERS OF

THE
THE

Defendant also asks us to impose sanctions oil
Plaintiffs because they “vexatiously multiplied the
proceedings and caused Trans Union to expend
significant amount of litigation fees in defending such
baseless claims.” (Doc. 63 at 15-16). Defendant does not
specify what “sanctions,” other than the attorneys’ fees
previously requested, they seek.
We note that, “among the implied and incidental
powers of a federal court is the power to discipline
attorneys who appear before it.” Chambers v. NASCO,
Inc., 501 U.S. 32, 43 (1991). Specifically, “once a finding
of bad faith is made, the appropriateness of sanctions is

28a
a matter entrusted to the discretion of the district
court.” Hackman v. Valley Fair, 932 F.2d 239 (3rd Cir.
1991). However, “[b]ecause of their very potency,
inherent powers must be exercised with restraint and
discretion” Chambers, 501 U.S at 44.
In the absence of further specifically requested
sanctions or arguments supporting their imposition, we
find that attorneys’ fees are adequate in this case to
sanction Plaintiffs and to discourage further vexatious
litigation. Defendant’s request for general sanctions in
addition to attorneys’ fees is therefore denied.
III.

CONCLUSION

For the foregoing reasons, we shall grant
Defendant’s Motion with regards to the imposition of
attorneys’ fees. We shall determine the appropriate
attorneys’ fees award in a subsequent rendering, made
after have we have received a supplemental filing from
Defendant’s counsel, as outlined below.
NOW, THEREFORE, IT IS HEREBY ORDERED
THAT:
1.
Defendant’s Motion for Attorneys’ Fees
and Sanctions Pursuant to 15 U.S.C, §
1681, 28 U.S.C. § 1927 and the Inherent
Powers of the Court, (Doc. 63), is
GRANTED to the extent that it seeks
appropriate attorneys’ fees.
2.
Defendant shall, within twenty (20) days,
file a supplement specifying the amount of
attorneys’ fees sought. This supplement
shall include, but is not limited to,
appropriate affidavits and attorney time
logs.

3.
4.

29a
Plaintiffs may file objections within
twenty (20) days of the Defendant’s filing.
Defendant’s Motion for Attorneys’ Fees
and Sanctions Pursuant to 15 U.S.C.
§1681, 28 U.S.C. § 1927 and the Inherent
Powers of the Court, (Doc. 63), is
DENIED in all other respects.
___________________
John E. Jones, III
United
States
District
Judge

30a
NOTES, REPORTS AND SCORING OBTAINED BY
PLAINTIFFS FROM SCORESENSE,
TRANSUNION, EQUIFAX, EXPERIAN,
CREDITORS, ETC.
No. Date
1
02/18/2015

2

02/04/2015

3

02/04/2015

4

02/25/2015

Comments
AKA Note re:
Wells Fargo
Credit Ratings –
FICO Experian
Credit Report
No.: 1, Experian
Credit Tracker
“Free Score 360”
ScoreSense
Monthly
membership of
$29.95
Bought
membership
. “Got the scores
and reports – we
are both in the
high “fair”
category. The
reports go back
quite a number of
years. Printed
two copies of
each. Will diary
for middle or end
of March to
request new
ratings at which
time, the

Credit Scores

31a

5

02/25/2015

6

02/25/2015

7

07/09/2015

Santander 21-b
mortgage and
loan should have
been removed.”
ScoreSense
Personal
Information
Summary
Account History
First report
received. (Note
creditor contacts,
p. 10 of 11.) My
credit score as of:
03/0403/04 -2015
Credit Scores:

8

07/10/2015

Credit Scores:

9

08/10/2015

Credit Scores:

10

09/15/2015

Credit Scores:

11

01/11/2016

Credit Scores:

12

02/19/2016

Credit Scores:

13

08/10/2017

VantageScore

Experian: 675
Equifax: 637
TU: 664

Experian: 673
Equifax: 678
TU: 691
Experian: 673
Equifax: 664
TU: 682
Same as
07/09/2015
Experian: 668
Equifax: 664
TU: 686
Experian: 664
Equifax: 643
TU: 647
Experian: 664
Equifax: 643
TU: 647
Experian: 636
Equifax:

32a
14

09/25/2017

15
10/01/2017
ADDENDUM
5/16/18
16
11/01/2017

17

12/27/2017

18

01/29/2018

19

02/27/2018

20

03/27/2018

21

04/27/2018

22

05/09/2018

23

05/10/2018

24

05/14/2018

ScoreSense

TU:
Experian: 572
Equifax: 588
TU: 576

DO NOT HAVE

ScoreSense

Experian: 593
Equifax: 600
TU:
ScoreSense
Experian: 596
Equifax: 605
TU: 583
ScoreSense
Experian: 590
Equifax: 606
TU:582
ScoreSense
Experian: 700
Equifax: 615
TU:598
ScoreSense
Experian: 594
Equifax: 616
TU:568
ScoreSense
Experian: 596
Equifax: 779
TU:748
Vantage Score
Experian: 718
Equifax:
TU:
TransUnion, LLC Experian:
– Report Supplied Equifax:
by Defense
TU:719
Counsel
TransUnion:
Experian:
Alice Angino –
Equifax:

33a
25

05/18/2018

ADDENDUM
5/30/2018
26
5/22/2018

27

5/27/2018

28

5/29/18

29

5/29/18

30

5/29/18

Sun Motors
Credit Karma

TU:722
Experian:
Equifax: 779
TU:748

TransUnion –
5/23/18 –
Response to
Reinvestigation
ScoreSense –
Alice Angino

RCA–TU: 578
AKA-TU:601

3 Bureau Report
+ FICO Score –
Richard Angino
Experian Credit
Report

Equifax Credit
Report

Experian: 767
Equifax: 616
TU:601
Experian: 677
Equifax: 593
TU:593
Credit Score:
677
FICO Score 2
728:
FICO Auto
Score: 703
FICO Auto
Score 2: 735
FICO
Bankcard
Score:689
FICO Score
3:649
FICO
Bankcard
Score 2:732
Credit Score
717

34a
31

5/29/18

ADDENDUM
6/26/2018
32
6/7/2018

33

6/26/2018

ADDENDUM
7/17/18
34
6/20/2018

35

6/29/2018

36

6/29/2018

37

7/5/2018

38

7/5/2018

39

7/5/2018

40

7/12/2018

TransUnion

Credit Score
578

Credit Karma
Report

Experian:
Equifax: 617
TU:601
Credit Score:
594

Experian Credit
Report

Score Sense: 3
Bureau Reports
Alice Angino
TransUnion
Personal Credit
Report: Richard
C. Angino
TransUnion
Personal Credit
Report: Alice
Angino
TransUnion
Credit Monitoring
Experian – 3
Bureau Report
Personal Credit
report: Richard
C. Angino
Equifax – 3
Bureau Report
Credit Karma

Experian: 602
Equifax: 619
TU:621

Experian: 587
Equifax: 600
TU:591
Experian: 598
Equifax: 612
TU:612

Experian: 696
Equifax: 748
TU:750
Equifax: 751

35a
Alice Angino
ADDENDUM
8/1/18
41
7/30/2018

42

7/30/2018

43

7/30/2018

ADDENDUM
9/11/18
44
8/9/2018

45

9/2/2018

TU:609

TransUnion
Experian: 545
Credit Monitoring Equifax: 548
TU:637
Experian – 3
Experian:534
Bureau Report
Equifax: 556
personal Credit
TU:661
report: Richard
C. Angino
Equifax – 3
Experian: 712
Bureau Report.
Equifax: 690
TU:722

Credit One
Rejection Letter
with Credit Score
Credit One
Rejection Letter
with Credit Score

Experian: 590
Equifax:
TU:
Experian:
Equifax:
TU: 595

